—



    Department of Health and Human Services

           OFFICE OF
      INSPECTOR GENERAL




          FDA’S URGENT NOTICE





                     JUNE GIBBS BROWN
                     Inspector General

                          JULY 1996
                        OEI-07-94-00631
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES
The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The 010’s Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Kansas City Regional Office under the direction of James H.
Wolf, Regional Inspector General. Project staffi

               Region                                        Headquarters

Raymond Balandron, Project Leader	                   Mary Beth Clarke, Program Specialist
                                                     Mark Krushat, Branch Chief



To obtain a copy of this report, call the Kansas City Regional Office at (800) 241-2527.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      FDA’S URGENT NOTICE





                # sEWICq “GO
            &
        $                 v




                 $
        $                      JUNE GIBBS BROWN
        <                       Inspector General
        2
        ‘5
         %.
          d--                        JULY 1996
           %d~~
            >                     0EI-07-94-o0631
                FDA’S            URGENT                NOTICE

PURPOSE

The purpose of this inspection was to assess the effectiveness of the Food and Drug
Administration’s  (FDA) Urgent Notice on recalled blood glucose test strips, released
toretail pharmacies Octoberll,   1995.

RECAU      AND URGENT        NOTICE    OF DEFECTIVE       TEST STRIPS

The FDA’s Center for Devices and Radiological Health (CDRH) is responsible for
regulating devices and radiological health which includes identi&ing and addressing
postmarked safety questions that arise. In dealing with these issues, FDA will
occasionally notify members of the heahh care community to inform them of the
problem and to provide important follow up instructions to prevent further recurrence.

In January 1995, a manufacturer of blood glucose test strips voluntarily recalled
certain lots of test strips and in June 1995 extended the voluntary recall to include all
lots current in the marketplace. Patients with diabetes make use of the strips in
monitors to measure their blood glucose levels and, if necessary, adjust insulin doses.
Following the extended recall in June 1995, the FDA found that recalled test strips
were still on pharmacy shelves and available to the public. The FDA took a number
of actions, including mailing an Urgent Notice to all pharmacies in the U.S. on
October 11, 1995. The notice was developed in collaboration with the manufacturer
and consequently reflects wording negotiated between FDA and the manufacturer.
The notice described the test strip problem and requested all pharmacies to remove
any affected stock and post an important public notice for consumers who may have
purchased these products previously.

While CDRH was in the process of issuing the Urgent Notice, it requested us to
closely monitor the receipt of the notice and assess its effectiveness. We conducted a
nationally representative telephone survey of 279 pharmacies to get a broad
perspective of how pharmacies perceived the Urgent Notice and a multi-regional on-
site survey of 183 pharmacies to validate national information and to make a personal
examination of their test strip stock. A more detailed description of the methodology
is found in Attachment A.

FINDINGS

A majoriy of the pharmacists surveyed acknowledged receiving the FDA ‘Ugent Notice
About Recalled Blood Glucose T~t Strips.” One-third or more did not.

Our study revealed that 67 percent of the pharmacists telephoned     and 56 percent of
those visited acknowledged receiving the Urgent Notice.



                                            1

     Discussion.  We are unable to explain why some pharmacists did not know about the

     notice. We specifically asked to talk to the head pharmacist or other person who

     should have been made aware of an important FDA notice. One possibility is that the

     mail was forwarded to another department in the store or the store manager.

     However, we have no data to document the prevalence of this practice.


     Other possible explanations are that respondents had not yet received the FDA notice

     at the time we conducted our surveys, or had received it but forgotten about it. Both

     of these were minimized by our study design. We waited 10 days after FDA had

     mailed the notice before we began our surveys, and completed them within a two

     week period.


     Another possible explanation is that the mailing list we used was different from the

     one used by FDA. The FDA obtained its list from a marketing firm that used the

     mailing list of the National Council for Prescription Drug Programs. We did not use

     this same list for two reasons. Various logistical factors, including lack of

     computerized format, precluded our using this list in a timely fashion, which was

     critical for the evacuation. Second, the list we used from the controlled substances

     registrant file of pharmacies maintained by the Drug Enforcement Administration was

     readily available in usable format. While neither we nor FDA believed the lists to be

     identical, they both represent licensed pharmacies and should be very similar. We

     were unable to make a detailed comparison of the lists for this study.


     Clearly, more research would be needed to determine exactly why some of the

     pharmacists we interviewed did not acknowledge receipt of the notice.


     l%e FDA Uigent Notice was the vehicle that made approximately one-hay of the
     pharmacies that received it aware of the blood glucose test strip problem.

     Of the pharmacists that acknowledged receipt, 45 percent of the pharmacists
     telephoned and 58 percent of the pharmacists visited learned of the recalled glucose
     strips from the Urgent Notice.

     Of the remaining pharmacists that did not receive the notice, only 35 percent of those
     surveyed by telephone and 40 percent of those visited said they were previously aware
     of the problem.

      lWu7e a majority of pharmacists reprted checking for and removtig affected stock we
     found recalled blood glucose strip in one pharmacy we Viritetl

     The FDA recommended that pharmacies check their inventories and immediately
     remove any identified lot numbers from their shelves. We asked those pharmacists
     who had acknowledged receiving the alert if they carried out this recommendation;
     84 percent of those telephoned and 71 percent of those visited reported they had in
     fact checked for and removed any recalled stock. The only reason they stated for not
     following this recommendation was not carrying the affected brands.


                                                  2


——
In all our site visits, regardless of whether the pharmacist acknowledged receipt of the
notice, we attempted to verify that affected stock was not available for sale. We were
unable to examine stock in all locations, and some pharmacies did not carry the
affected brands. We did find one pharmacy with four boxes of recalled test strips on
their shelf, which were promptly removed when brought to their attention.

Discussion. Based on the first two findings alone one might have expected to find
more instances of recalled product on the shelves. After all, most of those who had
not received the FDA notice were not previously aware of the problem.

One possible explanation is that recalled stock may already have been sold. The
manufacturer sent out its first recall notice in January 1995, a full 9 months before
FDA sent out its Urgent Notice. Presumably, the distributors would have ceased
shipping the defective stock as soon as they received the manufacturer’s recall notice.
During the ensuing 9 months, any pharmacies that were not notified of the defective
product may well have depleted their stock through sales.

Another possible explanation is the fact that the pharmacies carrying this brand of
product are not randomly distributed across the country like our phone sample was
nor concentrated in the nine metropolitan areas where we conducted our on-site
reviews. It may be that the manufacturer’s recall effectively reached most of the
pharmacies which carry the brand. However, we must caution that this is pure
speculation on our part. Our study was not designed to test the effectiveness of the
manufacturer’s recall.

Few phamuzcies posted the public notice which FDA had provided

The FDA also recommended that pharmacies post an attached important public
notice about the defective test strips where it would be visible to consumers. We
found that, of the pharmacies receiving the Urgent Notice, only 29 percent of the
telephoned pharmacies and 13 percent of the visited pharmacies posted the public
notice. The pharmacies not posting the notice gave the primary reasons as the brands
were not stocked, they did not realize they were supposed to post the public notice,
and they did not read the Urgent Notice thoroughly enough to realize there was an
attached notice. Comments offered by some of the pharmacists indicated that they
did not understand the importance of posting the notice. They suggested that FDA:
more clearly indicate the importance of posting it; highlight the existence of the public
notice clearly at the front of the Urgent Notice; and clarifj whether it is necessary to
post a notice regarding a product that is not stocked.

ISSUES   FOR CONSIDERATION

Our study leaves several issues unanswered. FDA’s urgent notice did reach many
pharmacists that would not have otherwise been aware of the defective product. Why
it did not reach the others is not evident from our study. Clearly, more research on
how to effectively reach this kind of audience is warranted.


                                            3
We were pleased to be of assistance to FDA in its efforts to improve the urgent
notification process. We strongly encourage CDRH to continue in its efforts to
improve notification of the health care community on important safety issues with
medical devices. Based on our review of this single Urgent Notice, we offer the
following issues for consideration as CDRH explores other dissemination methods and
evaluates possible changes in format for notices and alerts. We recognize the
budgetary constraints that exist in piloting or implementing any new options. As the
responsibility of communicating safety information to the health care community is
shared with other Centers, cooperation and more focused attention by several Centers
may yield the best results.

l%e FDA should consider other diwemination tnethodk for zugent alert informatio~
especially for those sz”tuationswhere complete dissemination k essential

The process of using first class mail was not successful in reaching the entire target
audience for this Urgent Notice. The success of any dissemination through mail will
be highly dependent on several variables, such as the accuracy of the mailing list and
internal mail distribution within businesses or offices. No doubt, situations will
continue to arise where first class mail may be the only option available. Also, as a
more “official” document of the agency, with emblems and signatures, first class mail
may always be useful as a follow up to other dissemination vehicles. However, where
timeliness or complete dissemination is essential, other methods may provide more
reliable, efficient means. These methods might include telephone, fax, or electronic
means, such as on-line systems used by claims processors or third party programs.
Health care professional groups and associations may be helpful in identi@ing or
creating networks for facilitating dissemination.

Ilze FDA should consider r#onnattingjitture alertr and notices to clarifi the actkms
healih care profem”onalr are recommended to carry out.

Not all those who said they had received the notice carried out the recommendation
to post the consumer notice. Comments from our survey indicated that some did not
see the instructions, perhaps not reading the notice completely, while others exercised
judgment and determined that it was not necessary. For future alerts, clearly stated
recommended actions may need to be highlighted or prominently placed to focus
reader attention. These issues of clarity and format will also be relevant if other
dissemination vehicles are adopted.

AGENCY COMMENTS AND OIG RESPONSE

We received comments from FDA on the draft report and they are included as
Attachment B. They were generally supportive of the evaluation and results, and have
agreed to undertake a broader review of the program, including an in-depth look at
new technologies for communication. The FDA did disagree with our conclusion in
the draft report that first class mail could not be relied upon to reach all pharmacies.
We agree that this conclusion was stated too broadly. We did not measure whether


                                            4
the notice was delivered to pharmacies, but rather examined whether the responsible
pharmacist was aware of the information that had been mailed. We modified our
report to clarify that our conclusion related to the pharmacists, not the pharmacies.

The FDA also provided a number of helpful technical comments, and we have made
changes where appropriate. The FDA also asked us for any specific recommendations
we might have on reformatting the urgent notices to make them more effective.
While we have our opinions on the matter, we feel that it would be best if any
changes in reformatting notices should be considered as part of a broader strategy and
developed by professionals knowledgeable in the communications field. At FDA’s
suggestion, we have included copies of the Urgent Notice (Attachment C) and survey
instruments (Attachments D and E).




                                           5

                                                                     Attachment   A

                         METHODOLOGY

We held several discussions with representatives of the CDRH to determine the focus
of the study. We decided to assess the Urgent Notice by conducting two surveys of
community pharmacies in the United States. Two separate samples were drawn for
the surveys. The first sample was intended to be representative of all pharmacies in
the country. This sample was used for the national telephone survey to assess the
effectiveness of the FDA urgent notice by obtaining a broad perspective of how both
urban and rural pharmacies throughout the country perceived the Urgent Notice. The
second sample included only pharmacies located in specified urban areas. This was
used for the second survey, which was a regional on-site survey, to validate national
information solicited and to make a personal examination of their blood glucose test
strip stock.

To develop our sampling frame of pharmacies in the United States, we obtained the
Controlled Substances Registrant File of pharmacies maintained by the Drug
Enforcement Administration, Department of Justice. This file contained the names
and addresses of 60,970 registered pharmacies with a business activity code of ‘A’,
indicating the entity was a pharmacy. This was the only source we used to obtain
sample pharmacies for data collection.

National Telephone Survey

This survey involved contacting, by telephone, a simple random sample of 330 retail
pharmacies from the list of 60,970. Based upon our sampling assumptions, this sample
size would give us a 90 percent assurance that the true proportion of pharmacies
recognizing the Urgent Notice would be within five percent of our estimate.

The actual number of pharmacies completing the telephone survey was 279 or 85
percent. There are various reasons why some pharmacies did not complete the survey
which included (1) no longer in business, (2) non-cooperation by the pharmacist, and
(3) the business was not a retail pharmacy.

R~”onal On-sile Survey

Using simple random sampling, we selected 25 pharmacies in each of the following
metropolitan areas; Boston, New York, Philadelphia, Atlanta, Kansas City, Chicago,
Dallas, San Francisco, and Washington D. C., for a total of 225 pharmacies. This
sample size was dictated by resource constraints rather than desired precision levels.
Any pharmacies selected in the national sample that fell within the sampling frame of
any of the nine metropolitan areas was automatically included in the regional sample.




                                           6

Of the 225 pharmacies in the sample, the actual number of pharmacies visited and
completing the on-site survey was 183 or 81 percent. Among the reasons for not
completing all the on-site visits were (1) pharmacy no longer in business, (2) business
was not a retail pharmacy, and (3) pharmacy location was outside the area to be
visited.

Both surveys were conducted during a two week period starting 10 days after FDA
sent out its Urgent Notice.

The questions used in both survey documents were identical. However, the on-site
visits included examining the pharmacies’ test strip inventory for the brands listed in
the Urgent Notice and any identified lot numbers.

The following table provides our estimates of the standard errors and lower and upper
95 percent confidence intervals for figures presented in this report. Estimates for the
local site visits are appropriately weighted to reflect the sampling design. only in the
case of posting the notice does there appear to be a significant difference in the
proportions. Of those acknowledging receiving the Urgent Notice, 29 percent of those
contacted by telephone claim to have posted the notice. Less than half of that
proportion made a similar claim among the local site visits, 13 percent. The
confidence intervals of these two estimates do not overlap.

                 Estimates, Standard Errors and Confidence Intervals
                            for Values Presented in Report


                                                                    95% Conf. Interval
                                            Est.       Std. Err.    Lower     Urmer
 Proportion of Pharmacies Receiving Urgent Notice
 Telephone Survey                           0.667      0.028        0.612      0.722
 Local Visit Survey                         0.561      0.044        0.475      0.647

 Proportion Learning of Recall horn Urgent Notice*
 Telephone Survey                           0.452      0.036        0.381     0.523
 Local Visit Survey                         0.579      0.060        0.461     0.697
 Proportion Posting Urgent Notice*
 Telephone Survey                           0.290      0.033        0.225     0.355
 Local Visit Survey                         0.130      0.039        0.054     0.206
 *Among Those Acknowledging Receipt
We conducted our review in accordance with the Qzdi~ fhndtm.     for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                         8



—
                                                                                                                  Attachment   B
   “’’’’”%,
,+’”                                                                                      Public Health Service
                  DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Food and Drug Administration

    @
+,+
  .,,,,O
   >
                                                                                           Memorandum

       Date       NAY   3 / /996
       From
                  Deputy Commissioner for Management and Systems (Acting)

       Subject	
                  Food and Drug Administration’s (FDA) Comments on the Office of Inspector General’s
                  (OIG) Draft Report, “FDA’s Urgent Notice, “ (OEI-07-94-00631) - INFORMATION
      To
                  Deputy Inspector General for Evaluation and Inspections


                  We reviewed the referenced draft report and prepared the attached comments,

                  We are pleased to report that FDA’s Deputy Commissioner for Operations has agreed to
                  conduct a review of your report’s suggestions.

                  If your staff has any questions, please have them contact Jim Dillon on (301) 443-6392.


                                                            %’hmyd
                                                             Robert J. Byrd

                  Attachment
    COMMENTS      OF THE FOOD      AND   DRUG    ADMINISTRATION       ON THE OFFICE
    OF INSPECTOR      GENERAL (OIG) DRAFT REPORT, “FDA’S URGENT             NOTICE,”
                           0EI-07-94-O0631, APRIL 9, 1996



General   Comments

The Food and Drug Administration (FDA) appreciates the opportunity to review and
comment on the draft report. We acknowledge        the OIG’S prompt response and
thoughtful efforts to our request to evaluate the effectiveness of the Agency’s October I I,
1995 Urgent Notice on recalled blood glucose test strips. We believe the report will
provide useful information to improve the Agency’s Center for Devices and Radiological
Health’s (CDRH) Postmarked Safety Notification    Program.

The FDA agrees with the OIG draft report that recognizes the tremendous importance of
rapidly and accurately communicating safety information to the health care community.
The FDA also agrees that we must assure that our outreach capabilities are of the highest
quality and are received by the health care community in a format that is maximumly
useful. The OIG draft report serves as a timely catalyst for encouraging FDA to
undertake a broader examination and to improve the overall program. To this end, the
Deputy Commissioner for Operations has agreed to conduct a prompt review of the OIG
suggestions, including an indepth look at new technology (such as electronic
communications)     and new approaches to older technology (such as reformatting existing
alerts and notices).

The FDA disagrees with the OIG’S conclusion that states FDA’s process of using first
class mail cannot be relied upon to reach all pharmacies.  This conclusion is based on
the OIG’S finding that one-third or more of the pharmacies surveyed did not
acknowledge receiving the “urgent notice. ” This finding is incongruent with FDA’s rate
of returned notices. Of the approximately   66,OOO urgent notices sent to pharmacies,
fewer than 1,000 were returned to FDA resulting in a return rate of 1,5°/0. In addition,
OIG gave FDA a list of names and addresses of the pharmacists who stated they did not
receive the notice so that we could reissue it. The Agency did not receive any returned
notices after they reissued them. As discussed in our technical comments, we asked OIG
to provide more explanations concerning the issues addressing the acknowledgment       of
notices. Since there are many unanswered issues, we believe more research is needed
before drawing a conclusion concerning the use of first class mail.
                                                                                     Attachment   C


                HFZ-51O
U.S. DEPARTMENT  OF
                                                               FIRST CLASS MAIL
tHEA1-TH AND HUMAN   SERVICES
                                                  POSTAGE  AND FEES PAID
Public Health Service
                                                                 PHS/FDA
Food and Drug Administration
                                                      PERMIT NO. G-285
Center for Devices      and Radiological   Health

Rockville,   Maryland    20857





                          FDA              IMPORTANT                NOTICE

                                    For    Users of Blood G[ucose Test Strips
       IMPORTANT NOTICE
          FOR USERS OF
   BLOOD GLUCOSE TEST STRIPS
WHAT’S        THE   PROBLEM?


      Some brands of blood glucose test strips for use in blood glucose meters may give
      incorrect high or low readings, leading to serious health problems. The
      manufacturer has recalled the product and asked that these strips be taken off the
      store shelves, but some people may still be using the recalled strips.

HOW      DO    I KNOW    IF I HAVE      THE   RECALLED      TEST    STRIPS?


      You must look at two things:

      1.      Check the brand.   The following brands were recalled:

                BRJl_E- LIFE                  HEALTH MART               QUICK CHECK ONE

                BROOKS                        LONGS                     QUICK CHECK 3

                BROOKS 1                      MK (MEDICAL)              RELIEF PLUS

                FAMILY PHARMACY               PERRY 1                   RELIEF PLUS ONE

                FULL VALUE                    PERRY HEALTH CARE         TOP CARE

                GIANT EAGLE                   QUALITEST 3               VALU-RITE

                GOOD NEIGHBOR


      2.	 Check the lot number on the container. The recalled strips have lot numbers
          beginning with 30, 31, 41, or 43. These brands are OK if they have other lot
          numbers.


IF YOU ARE USING BLOOD GLUCOSE TEST STRIPS THAT MATCH THE
ABOVE BRANDS AND LOT NUMBERS:

      1.      Stop using these test strips and purchase a fresh supply.

      2.	 Continue using your blood glucose meter with your new test strips and follow
          your doctor’s instructions.

      3.      Contact your pharmacist   or doctor if you have concerns or questions.

      4.	 For information on how to exchange recalled test strips, call the manufacturer at
          1-800-446-4374   from 8:00 a.m. to 4:00 p.m. Pacific Time and 11:00 a.m. to 7:00
          p.m. Eastern Time.
Diagnostic Solutions, Inc. has improved the manufacturing process to correct the
problem and the company is now manufacturing new strips under these same brand
names. The new strips are sold in containers that look almost identical to those in
which the recalled test strips are packaged.   Therefore, to identify the recalled test
strips, it is important to examine the lot numbers,

OTHER RECOMMENDED            ACTIONS

In the interest of safety to patients, who may still have the recalled strips in their homes,
FDA and the manufacturer are also asking that:

       �
              Health care facilities   stop use of the recalled strips

       �	
              Health care professionals display and disseminate the attached
              Important Notice and advise patients to discontinue use of the recalled
              test strips, and

       �	
              Organizations notify their members. (This document         and the attached
              Important Notice may be reproduced.)

In the meantime, FDA will continue to monitor the effectiveness of the recall. it is
critical that- all pharmacies complete the reoall process that the company has-initiated
by following the above recommendations.

Diagnostic Solutions, Inc., will replace the recalled test strips. For more information,
call 1-800-446-4374.  This number is available to health care professionals and
consumers. The hours of operation are 8:00 a.m. to 4:00 p.m. Pacific Time/l 1:00 a.m.
to 7:00 p.m. Eastern Time.




                                                  D. Bruce Burlington     ‘

                                                  Director

                                                  Center for Devices and

                                                   Radiological Health

            ,,.L,,,,
     ~,!.
                       %,
    ,.J

 e
~:
J
                                DEPARTMENT OF HEALTH & HUMAN           SERVICES                        Public   Health   Service
s
*
5           -@


  -2.
    ‘+	%.,a
       >
                                                                                                       Food and Drug Administration
                                                                                                       Rockville   MD    20857

                                                                                                       October 11, 1995


                                                       URGENT’ NOTICE ABOUT
                                   RECALLED              BLOOD GLUCOSE TEST STRIPS

                            Dear Health Care Professionals:

                            A number of blood glucose test strips were recently recalled by the manufacturer
                            because they may give inaccurate readings, both high and low, posing a potentially
                            serious health risk to users.

                            The strips were recalled and a press release issued by the manufacturer.    However,
                            FDA and the manufacturer have recently found recalled strips in some retail outlets and
                            health care facilities, such as nursing homes. The recalled test strips may also be in
                            home medicine cabinets.

                            Retailers are hereby notified by FDA in conjunction with Diagnostic Solutions,
                            Inc., that notifications concerning recalled blood glucose test strips should not
                            be ignored.

                            RECOMMENDED            ACTIONS

                            FDA and the manufacturer     are urging that pharmacies   and health care facilities:

                                   �       check inventories and immediately remove the indicated test strips
                                           from their shelves, and
                                   �       post the attached Important Notice where it is visible to consumers.

                            HOW TO IDENTIFY THE PROBLEM             TEST STRIPS

                            The recalled test strips, all manufactured by Diagnostic Solutions, Inc., were sold under
                            nineteen brand names, as listed below. All the recalled test strips have lot numbers
                            beginning with 30, 31, 41, or 43 and expiration dates ranging from February 1993 to
                            December 1996. Other lot numbers of these brands are not affected.

                                                               Brand Names

                                  BRITE-    LIFE               HEALTH    MART              QUICK CHECK ONE
                                  BROOKS                       LONGS                       QUICK CHECK 3
                                  BROOKS 1                     MK (MEDICAL)                RELIEF PLUS
                                  FAMILY PHARMACY              PERRY 1                     RELIEF PLUS ONE
                                  FULL VALUE                   PERRY HEALTH CARE           TOP CARE
                                  GIANT EAGLE                  QUALITEST 3                 VALU-RITE
                                  GOOD NEIGHBOR
                                                                                         Attachment     D


                             Office   of Inspector       General
                    Office        of Evaluation       and Inspections
                             Kansas    City     Regional   Office

                               TELEPHONE SURVEY DOCUMENT


                             FDA’s URGENT NOTICE PROCESS

                             Inspection #OEI-07-94-00631


Pharmacy     Name                                                                        Date

Pharmacy     Address                                                            Phone#



Respondent/Pharmacist               Name


      NOTE: You will              need to        determine    if     the        pharmacist       on duty
      will    be    able     to    answer        the questions.
                                             The senior
      pharmacist or pharmacist-manager would be preferable; at a
      minimum, you should speak with a full-time (or close to
      full-time) pharmacist who regularly works in that
      pharmacy.  Pharmacists who work part-time (or p.r.n. or
      on-call basis) or in several pharmacies will probably not
      be the best source of information. If the only pharmacist
      available is in this latter category, ask when the senior
      pharmacist will be available and call back.

1.	   Did you receive the Urgent Notice about Recalled Blood

      Glucose Strips issued by FDA on October 11, 1995 (the

      title was in bold red letters)?



              Yes                         No


      If no, explain           to them that              you will        advise      FDA so      it   can
      nail them the           Urgent  Notice.

2.	   Were you previously aware of the problem with these
      glucose strips?


              Yes                         No


       If yes, when          and    how    did     you    learn     of    the     problem?


      NOTE: IF RESPONDENT DID NOT RECEIVE THE URGENT NOTICE END

      THE INTERVIEW AT THIS POINT.

3.	   Did you follow the recommendation     in FDA’s Notice     checking
      your inventory and immediately    removing  the indicated       test
      strips?


            Yes
              No


      If no, why not?


4.	   Did you post the attached important Notice where it was
      visible to consumers?


            Yes               No

      If yes, describe where the Notice was posted.


      If no, why didnlt you post the important Notice?


5.	   Have you disseminated the important Notice and/or advised
      individuals to discontinue use of the recalled-test

      strips?


           Yes               No

      If yes, to whom?


6.    Did the Notice raise questions
 or concerns which required

      you to contact FDA?



           Yes               No


      If yes, what were those questions/concerns?


7.	   Did you think the Urgent Notice was clearly and

      understandably written?



           Yes               No


      If no, what particular portion of the Notice caused you

      problems?


8.	   Do you have any additional comments or suggestions that

      could improve future FDA Notices?



           Yes               No


      If yes, please explain.

                                                        Attachment E



                     Office of Inspector General

                 Office of Evaluation and Inspections


                       ON-SITE SURVEY DOCUMENT


                     FDA’s URGENT NOTICE PROCESS

                     INSPECTION #oEI-07-94-00631


Pharmacy Name                                           Date

Pharmacy Address                                   Phone#




Respondent/Pharmacist    Name


Upon entering the pharmacy, ask to see the head pharmacist.


      NOTE: You will need to determine if the pharmacist on duty

      will be able to answer the questions. The senior

      pharmacist or pharmacist-manager would be preferable; at a

      minimum, you should speak with a full-time (or close to

      full-time) pharmacist who regularly works in that

      pharmacy.  Pharmacists who work part-time (or p.r.n. or

      on-call basis) or in several pharmacies will probably not

      be the best source of information. If the only pharmacist

      available is in this latter category, ask when the senior

      pharmacist will be available and do a revisit.


1.	   Did you receive the Urgent Notice about Recalled Blood

      Glucose Strips issued by FDA on October 11, 1995?


           Yes              No


      NOTE: If they did not receive the Urgent Notice provide

      them with a copy of the Urgent Notice and the attached

      notice to be posted for their review.


      If the pharmacy is located in a Csstore,lCask

      if it is possible that the ‘sstore~t
  manager received the

      Urgent Notice in the mail and it didntt qet to the

      pharmacy?   If the pharmacist believes    this is a strong
      possibility, ask the ‘tstore’smanager if he/she did get the

      notice.


2.	   Were you previously aware of the problem with the blood

      glucose strips?


           Yes              No


      If yes, when and how did    you   learn of the problem?
7.	   Did you think the Urgent Notice was clearly and
      understandably written?

            Yes                   No


      If no, what particular portion of the Notice caused you

      problems?


8.	   Do you have any additional comments or suggestions that

      could improve future FDA Notices?


           Yes                No


      If yes, please   explain.
